o

Mo.
--------3./-3«8
3Jn tl)t Supreme Court of tlje fHntteb States
Tim Sundy, Petitioner v.
FRIENDSHIP PAVILION ACQUISITION CO. LLC, ARSENAL REAL ESTATE
FUND II-IDF, LP, Gary Picone, Thomas Ling, Michael Weinstein,
GEORGIA DEPARTMENT OF TRANSPORTATION, Respondents

On Petition for Writ of Certiorari
To The Supreme Court of Georgia
from a determination in case S21C0007

PETITION FOR A WRIT OF CERTIORARI

Tim Sundy, pro se
227 Sandy Springs Place, Ste D-465
Sandy Springs, GA 30328
404-409-5473

RECEIVED
AUG 3 1 2021

nastsmt

I

*

Question Presented for Review
Whether the willful refusal and/or failure of a court of record to maintain a complete
record is a form of custody, depriving a litigant of due process while denying the
litigant protections and immunities and rights guaranteed by the First. Fourth, and
Fourteenth Amendments of the United States Constitution?

1

List of Parties to Proceeding
1. Tim Sundy
2. Friendship Pavilion Acquisition Company, LLC; a Delaware corporation
3. Arsenal Real Estate Fund II-IDF, LP, a Delaware corporation
4. Georgia Department of Transportation
5. Gary Picone
6. Thomas Ling
7. Michael Weinstein
Related Cases
Superior Court of Hall County, Georgia:
Case 2015CV1366-Friendship Pavilion Acquisition Co., LLC v. Mediterranean
DINING GROUP, ET AL. Judgment entered December 3, 2018.
Case 2016CV0982 -Tim Sundy v. C. Andrew Fuller,

et al.,

a Brown v. Johnson,

251 Ga. 436 (Ga.1983) mandamus action. Judgment entered Aug. 22, 2018.
Case 2017CV0031 -David Sundy V. Charles Baker, et AL., a Brown v. Johnson,
251 Ga. 436 (Ga.1983) mandamus action. Judgment entered April 3, 2017.
Case 2017CV1125J -Charles Bakery. David Sundy and Tim Sundy. Judgment
entered July 10, 2018
Case 2018CV00502 -In re: David Sundy, Still Pending.

Cases in the Georgia Court of Appeals:
Case A17D0476. DAVID SUNDY v. MARTHA C. CHRISTIAN, JUDGE ET AL.,
Granted in part, denied in part 06/21/2017
n

Case Al 7D0525rDAVID~SUNDY~ET "AbrvrFRIE-NDSHTB-BAyiLION_
ACQUISITION COMPANY, LLC ET AL., Dismissed 07/17/20171
Case A18A0170. DAVID SUNDY v. MARTHA CHRISTIAN ET AL., Lower Court
Affirmed 03/28/2018
Case A18A0290. TIM SUNDY ET AL. v. FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC ET AL., Dismissed 10/03/2017
CaseA18D0215, TIM SUNDY ET AL. v. FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC ET AL. Dismissed 12/28/2017
Case A19D0108. TIM SUNDY v. FRIENDSHIP PAVILION ACQUISITION CO.,
ET AL., Denied 10/19/2018
Case A19E0011. DAVID SUNDY ET AL. v. CHARLES BAKER ET AL, Denied
09/19/2018
Case A20D0016. TIM SUNDY v. FRIENDSHIP PAVILION ACQUISITIONS CO.,
LLC et al., Dismissed 08/27/2019
Case A20E0037. TIM SUNDY v. FRIENDSHIP PAVILLION ACQUISITIONS LLC
et al., Denied 03/13/2020
Case A19D0398. TIM SUNDY v. FRIENDSHIP PAVILLION ACQUISITIONS LLC
et al., Denied 07/07/2020

Cases in the Georgia Supreme Court:
Case S17Q1606. SUNDY v. BAKER et al., Dismissed 05/30/2017 Reconsid.
Denied: 06/30/2017
in

Case Sl8C0377rSUNDY-YrFnrFRIENDSHIP-PAVILLIQN-ACQUISmON LLC
et al.ACQUISITION LLC et al. Denied 05/30/2017
Case S18C0475. SUNDY et al v. FRIENDSHIP PAVILLION ACQUISITION LLC
et al. Denied 05/07/2018.
Case S18C0710, SUNDY et al v. FRIENDSHIP PAVILLION ACQUISITION LLC
et al. Denied 05/07/2018
Case S18C0395. SUNDY et al v. FRIENDSHIP PAVILLION ACQUISITION LLC
et al. Denied 06/03/2019; Recons. Denied 07/01/2019
Case S19D0602. SUNDY et al v. FRIENDSHIP PAVILLION ACQUISITION LLC
et al. Transferred to COA 01/31/2019
Case S19D0838, SUNDY et al v. FRIENDSHIP PAVILLION ACQUISITION LLC
et al. Transferred to COA 03/20/2019
Case S18C0395. SUNDY et al v. FRIENDSHIP PAVILLION ACQUISITION LLC
et al. Denied 06/03/2019; Recons. Denied 07/01/2019
Case S18C0943. SUNDY et al v. FRIENDSHIP PAVILLION ACQUISITION LLC
et al. Denied 11/04/2019
Case S19Q1351. SUNDY v. CHRISTIAN et al. Dismissed 08/05/2019; Recons.
Denied 08/20/2019
Case S20M1044. SUNDY et al v. FRIENDSHIP PAVILLION ACQUISITION LLC
et al. Denied 03/31/2020
Case S20C1075. SUNDY et al v. FRIENDSHIP PAVILLION ACQUISITION LLC
et al. Denied 10/05/2020
IV

Case S21C0007. SUNDYvrFRlKNDSHIP PAVILLION ACQUISITION LLC et al.
Denied 03/15/2021

Cases in the U.S. District Court - Northern District of Georgia:
Case 2:15-cv-00149-RWS, FRIENDSHIP PAVILLION ACQUISITION LLC v.
MEDITERRANEAN DINING et al. Remanded to Hall County Superior Court
12/04/2015
Case 2:16-cv-00123-WCO, SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al. Remanded to Hall County Superior Court 08/31/2016
Case 2:18-cv-0112-SCJ, SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al. Dismissed 03/12/2019

Cases in the 11th Circuit USCA
Case 19-10183, SUNDY v.FRIENDSHIP PAVILLION ACQUISITION LLC et al.
Sundy’s mandamus petition to restore missing documents to 2:18-cv-0112-SCJ.
Denied after most documents- but not all-were restored by SCJ prior to USCA
ruling.
Case 19-10445, SUNDY v.FRIENDSHIP PAVILLION ACQUISITION LLC et al.
Sundy’s petition requesting injunction until missing documents are restored to
2:18-cv-0112-SCJ. Denied
Case 19-11391, SUNDY v.FRIENDSHIP PAVILLION ACQUISITION LLC et al.
Appeal from 2:18-cv-0112-SCJ. Dismissed. 03/13/2020
v

Cases in the SupremeCourt of-the United-States:
Case 19-7600-Title: Tim Sundy, Petitioner v. Friendship Pavilion Acquisition
Company, LLC, et al. for writ of certiorari Petition DENIED on 04/06/2020.
Case 19-6694-Tim Sundy, Petitioner v. Martha C. Christian, Judge, et al-.for writ of
certiorari. Petition DENIED on 01/27/2020, Rehearing DENIED on 03/23/2020.
Case 19-6821-Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Co., et al.
for writ of certiorari. Petition DENIED on 02/24/2020, Rehearing DENIED on
03/23/2020.

Case 19-5506-Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Company,
LLC, et al..for writ of certiorari Petition DENIED on 02/24/2020, Rehearing
DENIED on 03/23/2020.
Case 19-8492- In re: Tim Sundy, DISMISSED on 10/05/2020.
Case 19-8491- In re: Tim Sundy, DISMISSED on 10/05/2020.
Case 20-5401- Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Company,
LLC, et al.

for writ of certiorari to the 11th Circuit Court of Appeals. Petition

DISMISSED on 10/13/2020.
Case 20-5559 Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Company,
LLC, et al.... for writ of certiorari Petition DISMISSED on 11/02/2020.

Corporate Disclosure Statement
The Petitioner is not a corporation.

vi

Table of Authorities
Question Presented

Page i

Parties to Proceeding

Page ii

Related Cases

Page ii

Corporate Disclosure

Page vi

Table of Contents

Page vii

Table of Authorities

Page viii

Opinions Below

Page 1

Basis of Jurisdiction

Page 1

Constitutional Provisions

Page 1

Statement of the Case

Page 2

Argument

Page 5

Reasons for Granting the Writ

Page 13

Conclusion

Page 14

Appendix A (Supreme Court of Georgia ORDER 03/15/2021)

Page 1A

Appendix B (Georgia Court of Appeals ORDER 07/07/2020)

Page 2A

Appendix C (Superior Court of Hall County ORDER 12/3/2020)

Page 3A

Appendix D (Scott Harris letter 03/22/2021 denying pauperis status)

Page 4A

Appendix E (Superior Court of Hall County ORDER 6/3/2020)

Page 5A

Appendix F (Scott Harris deficiency letter 06/25/2021)

Pagel7A

Appendix G (image of cover of returned 6/14/2021 Petition)

Page 19A

Vll

Table of Authorities
Cases
Alvarez v. Warden, San Quentin State Prison,
No. 2:97-cv-1895 KJM KJN P (E.D. Cal. Apr. 2, 2019)

Page

.13

Chambers v. Baltimore Ohio Railroad,
207 U.S. 142, 28 S.Ct. 34, 52 L.Ed. 143 (1907)
Christopher v. Harbury, 536 U.S. 403. 415 (2002)

..7
..7

Davis v. Phoebe Putney Health Systems, 280 Ga.
505, 506-507 (1) (634 SE2d 452) (2006)

..9

Douglas v. California, 372 U.S. 353, 357 (1963)

..3

Elrod v. Burns, 427 U.S. 347; 6 S. Ct 2673; 49 L. ed. 2d (1976)

..6

Kegler v. State, 475 S.E.2d 593 (Ga. 1996)

..3

Mayer v. City of Chicago, 404 U.S. 189 (1971)

.13

McCray v. Maryland, 456 F.2d at 6

..7

Neitzke v. Williams, 490 U.S. 319, 327,
109 S.Ct. 1827, 1831-32, 104 L.Ed.2d 338 (1989)

..9
..5

Noble v. Shearer, 6 Ohio 426, 427 (1834)
Roberts v. First Ga. Community Bank,
335 Ga. App. 228, 230 (1) (779 SE2d 113) (2015)

..9

Ryland v. Shapiro, 708 F.2d 967 (5th Cir. 1983)

..7

Undisclosed LLC v. State, 302 Ga. 418, 425 (Ga. 2017)

..6

U.S. v. Mancilla, 226 Fed. Appx 945, 946 (11th Cir. 2007)
vm

..6

Table of Authorities
Western United Realty, Inc. v. Isaacs, 679 P.2d 1063, 1069 (Colo. 1984)

..9

Wright v. State, 215 Ga. App. 569, 570 (2) (452 S.E.2d 118) (1994)

..6

Statutes
O.C.G.A. §9-11-1

7,9

28 U.S.C. 1257(a)

1

Rules
11

Rule 20, U.S. Supreme Court
Other Authorities
U. S. Constitution, First Amendment

7

U. S. Constitution, Fifth Amendment

7

U. S. Constitution, Fourteenth Amendment

7

IX

PFTITIONFOR A WRIT OF CERTIORARI
Tim Sundy, pro se, respectfully petitions for a writ of certiorari to review the
judgment of the Supreme Court of Georgia in case S21C0007.
OPINIONS BELOW
The order of the Supreme Court of Georgia is unpublished and is attached as
Appendix A.

The order of the Court of Appeals of Georgia is unpublished and is

attached as Appendix B.

The order of the Superior Court of Hall County, Georgia,

is unpublished and is attached as Appendix C. The order of this Court in No. 206868 is unpublished and is attached as Appendix D.
JURISDICTION
The judgment of the Supreme Court of Georgia was entered on 15 March 2021.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a). Pursuant to this
Court’s Rule 13.1 and Rule 30.1, this Petition was timely submitted on Monday, June
14, 2021, by U.S. Priority Mail #9505511997471165645145 with money order number
19-263200973 in the amount of $300.00 enclosed; the Petition was prepared in booklet
form and proper pursuant to Rule 33.1.
This Petition momentarily appeared on this Court’s online docket on June 25,
2021 as Case 20-1798 but was removed.

Sundy’s signed booklet and the 8.5x11 copy

were returned to Sundy by Clerk Scott S. Harris with a deficiency letter dated June 25,
2021. Attached as Appendix F. An image of the docketed petition is at Appendix G.
This Petition is timely resubmitted by U.S. Priority Mail on Monday, August 23,
2021, certified mail# 70200640000027649607, and is now formatted under Rule 33.2.
1

STATEMENT OF THE CASE
Petitioner Tim Sundy (Sundy) in the state court below, since December 20,
2015 in case 2015CV1366 Hall County Superior Court (“HCSC”) when the Clerk
began removing Sundy’s properly filed documents from the record of the court, has
been subject to a record that is incomplete or otherwise defective in violation of
Sundy’s substantive and procedural due process rights. From 2015 to the present.
removed documents have included properly filed objections, timely responses, as
well as statutorily-required notice(s).

Omissions and falsifications in the record

have deprived Sundy of a record adequate to review specific claims of error already
raised, undercutting Sundy’s ability to meaningfully prosecute his appeal. The trial
court Judge threatened to sanction Sundy for refusing to acquiesce to the
incomplete record but did not follow through, instead rendering a judgment with
inconsistent due process as punishment enough.
Sundy has repeatedly presented clear evidence of the defective record and the
omissions which prejudice Sundy’s case, with Sundy exercising due diligence to
correct the record, while appellate courts either avoid the issue or dismiss
proceedings on other grounds. Judicial Notice-see RELATED CASES. For the past
six years, no adverse party in any of the proceedings listed, including those in the
11th Circuit, has ever argued or demonstrated that the record was complete for the
opposing party to obtain a judgment APPENDIX C by inconsistent due process in
the State court.
Sundy, to no avail, has asserted that in a court of record he is entitled to have
2

a complete record, even if no upcoming appeal or any other case is pending in
another court. A complete record on appeal is one of the cornerstones of the appellate
process and, in Georgia, the burden for that record rests squarely on the shoulders of the
appellant. See Kegler v. State, 475 S.E.2d 593 (Ga. 1996). All that pro se Tim Sundy
wants is a correct and complete record in the State trial court and in the appellate court
so that he may have a sufficient, adequate, effective, meaningful, and impartial appeal to
address his constitutional violations and issues.
No Court has identified to pro se Sundy at what point it should have become
clear to Sundy that he has no right to be immune from criminal activity. No Court has
found that Sundy does not have the right to a complete record. No Court has ever even
ruled on the original issue of Friendship Pavilion’s unclean hands and scheme of
prevention of performance, or the false affidavit it filed into a government entity.
On the other hand, pro se Sundy, in custody, has been forced to spend
thousands of dollars to defend against collateral acts committed by court officers
acting to deprive Sundy of Constitutional due process, equal protection and liberty
interests, at the same time as Sundy defends himself from Friendship Pavilion’s
affirmative RICO activity.
“There is lacking that equality demanded by the Fourteenth Amendment
where the rich man, who appeals as of right, enjoys the benefit of
counsel's examination into the record... The indigent, where the record is
unclear or the errors are hidden, has only the right to a meaningless
ritual, while the rich man has a meaningful appeal. Douglas v.
California, 372 U.S. 353, 357 (1963)
APPENDIX D states, without evidence, that pro se Sundy is abusing the
Court process and therefore Sundy is restrained of his liberty of the privilege of
3

proceeding in forma pauperis to apply for a writ of certiorari.

Opposing parties

have likewise, throughout the course of pro se Sundy’s respectful pursuit of remedy
to the deprivation of his rights, accused Sundy of sanctionable behavior in
retaliation for pro se Sundy’s tenacious and zealous self-advocacy. This, despite the
fact that Sundy’s legal arguments, claims and entitlement to equal protection and
due process are neither unreasonable nor without merit. The judges in State and
Federal appellate courts have failed to sustain such retaliatory requests,
recognizing Sundy’s right to intelligently, rationally, and respectfully defend himself
against civil liability and against court officers’ violations of Georgia and federal law.
APPENDIX D saying the “THE COURT” is in stark contrast with the cases
listed in RELATED CASES in which no Judge has ever sustained the notion that
Sundy’s complaints in multiple proceedings were abusive.
Only persons who are not a party, such as a Clerk, or the opposing parties,
would suggest Sundy as being abusive for adamantly invoking the Court on rights,
privileges and immunities which Sundy should have ordinarily as any other free
man. Pro se Sundy, despite his inexperience and lack of legal training, has always
attempted to present a cogent legal argument supported by factual evidence and with
citation to relevant legal authorities. Sundy’s demand for a complete record from a
court of record is supported by law, statute, and court rules. As outlined in Sundy’s
pleadings, this matter could have been terminated long ago if Georgia’s court officers
had simply obeyed the law. Instead, Sundy has suffered injury without remedy.
No Court has ruled that Sundy’s contentions and argument are utterly devoid
4

of all plausibility. It is clear, however, that pro se Sundy’s zealous self-advocacy and
availing himself of statutory access to the courts to vindicate his rights is an affront
to Clerks and attorney-represented parties. However, zealous self-advocacy is not
abusive. Sundy’s good faith efforts to determine whether a pro se litigant has any
remedy of equal protection of due process when the pro se party is singled out to have
his properly filed documents concealed, removed and/or withheld from the court record,
denying the pro se a correct, full, and complete record in both state court and federal
court, are the only method available to establish due diligence in the eyes of the Court.
The determination of APPENDIX D was made upon an incomplete record.
Only if the U. S. Supreme Court did have a complete record could the U. S. Supreme
Court objectively say under Rule 39.8 that Sundy’s case is frivolous or malicious. The
U. S. Supreme Court, by inconsistent due process, does not have a complete record
before it to reach a determination of Sundy’s complaint as frivolous. At the same
time, the Court can present no evidence that pro se Sundy is malicious in any way,
shape or form.
ARGUMENT
This petition for a writ of certiorari presents the question whether the willful
refusal and/or failure of a court of record to maintain a complete record is a form of
custody in depriving a litigant of due process while denying the litigant rights,
protections and immunities guaranteed by the First. Fourth, and Fourteenth
Amendments of the United States Constitution.
In Noble v. Shearer, 6 Ohio 426, 427 (1834) the Court stated that "A record is
5

the history of the cause from its commencement, the issuing of the writ, until final
judgment is rendered."

In Undisclosed LLC v. State, 302 Ga. 418, 425 (Ga. 2017),

the Court states “Case law and leading common law authorities have defined a
court record as a history of the proceedings and actions of the court from the
commencement of the suit to its termination.”
When Sundy petitions the U. S. Supreme Court, or any court, for review or a
writ of certiorari and only an incomplete record is available to be sent up, Sundy is
deprived of his liberty and is prejudiced as the result of his inability to present an
accurate and true record from which to prosecute his review.
“A complete record functions to ensure procedural due process on
appeal.” U.S. v. Mancilla, 226 Fed. Appx. 945, 946 (11th Cir. 2007)
“The burden is on the complaining party, including pro se appellants,
[cit.], to compile a complete record of what happened at the trial level,
and 'when this is not done, there is nothing for the appellate court to
review.' [Cit.]" Wright v. State, 215 Ga. App. 569, 570 (2) (452 S.E.2d
118) (1994).

Sundy’s First Amendment right of petition is lost when Sundy’s properly filed
objections, responses or other documents are removed from the court record. “Loss
of First Amendment freedoms, for even minimal periods of time, unquestionably
constitutes irreparable injury.” Elrod v. Burns, 427 U.S. 347; 6 S. Ct 2673; 49 L. ed.
2d (1976). Yet, no Court will not uphold Sundy’s right to a complete court record.
Six years is a long time to be injured by an incomplete record.
The numerous remedies sought by pro se Sundy to correct the record as noted
in the list of RELATED CASES would lead any reasonable man or women to

6

question why, in the interest'of justice, a court in Georgia would not have supported
Sundy’s right to a complete record and to the “just, speedy and inexpensive
determination of every action” secured to Sundy by O.C.G.A. § 9-11-1.
Pro se Sundy has consistently presented factual evidence that court clerks in
the trial court, state appellate courts, and even the U.S. District Court of the
Northern District of Georgia court have removed Sundy’s properly filed documents
from the court record and/or altered the record resulting in Sundy being deprived of
full access to the court.
This Court has placed the court access right in the Privileges and Immunities
clause, the First Amendment petition clause, the Fifth Amendment due process
clause, and the Fourteenth Amendment equal protection clause.
“Whether an access claim turns on a litigating opportunity yet to be
gained or an opportunity already lost, the very point of recognizing any
access claim is to provide some effective vindication for a separate and
distinct right to seek judicial relief for some wrong ....[Mjeaningful
access to the courts is a right of constitutional significance." Christopher
v. Harbury, 536 U.S. 403, 415 (2002)
In Ryland v. Shapiro, 708 F.2d 967 (5th Cir. 1983), the Court stated, citing
Chambers v. Baltimore Ohio Railroad, 207 U.S. 142, 28 S.Ct. 34, 52 L.Ed. 143 (1907):
“that it is clear that this Court viewed the right of access to the courts
as one of the privileges and immunities accorded citizens under article
4 of the Constitution and the .fourteenth amendment.”
The 5th Circuit went on to say that “A mere formal right of access to the
courts does not pass constitutional muster.” and further cited McCray v. Maryland,
456 F.2d (4th Cir. 1972) at 6 ("Of what avail is it to the individual to arm him with a
panoply of constitutional rights if, when he seeks to vindicate them, the court-room

7

can be hermetically sealed against him by a functionary who, by refusal or neglect,
impedes the filing of his papers?").
A meritorious action that proves unsuccessful is not frivolous. Defending
against the violations by court clerks and other functionaries as have been
perpetrated upon Sundy to deprive him of due process and full access to the court is
meritorious. It is especially meritorious to the other pro se litigants in Georgia who
are documented by Sundy to have been subjected to the same violations.
Under the U.S. Constitution, the right of access to the courts is guaranteed
and protected from unlawful interference and deprivations by the state. Georgia’s
lower courts and appellate courts, by failing to comply with the local rules of the
courts thereby denying Sundy due process, while also falsifying Sundy’s court
record(s) in a manner to abrogate Sundy’s legally protected private substantive and
procedural interests guaranteed by the statutes and constitution of the United States
and the State of Georgia, have placed Sundy in constructive custody.
Sundy has presented evidence in the lower courts of actual prejudice and
irreparable injury suffered by Sundy as the result of court officers’ repeated actions of
removing and/or withholding Sundy’s pleadings from the court records as well as
court officers’ actual falsification of the record.
The mere fact in Sundy’s case that Sundy has proven and established that
neither a state court nor a federal court in Georgia will compel the lower trial court
Clerk to complete the record, conclusively establishes that once the initial removal
of document is perpetrated by a clerk, on the very first day this happens, Sundy and
8

other citizens are denied the “just, speedy and inexpensive determination of every
action” secured to the citizens by O.C.G.A. § 9-11-1 and have absolutely no remedy
to the injury.
In Davis v. Phoebe Putney Health Systems, 280 Ga. App. 505, 506-507 (1) (634
SE2d 452) (2006) the Court established the maxim that "A party cannot participate
and acquiesce in a trial court's procedure and then complain of it." This was
underscored in Roberts v. First Ga. Community Bank, 335 Ga. App. 228, 230 (1) (779
SE2d 113) (2015): "[N]o matter how erroneous a ruling of a trial court might be, a
litigant cannot submit to a ruling or acquiesce in the holding, and then complain of
the same on appeal. He must stand his ground. Acquiescence deprives him of the
right to complain further." (Footnote omitted.).
Sundy has refused to acquiesce to court officers tampering with the record to
deprive Sundy (and other pro se litigants in Georgia) of equal protection and full access
to the court. For his due diligence and defense of his constitutional rights, this Court’s
Clerk labels Sundy’s pursuit of justice as abusive and Sundy’s claims as “frivolous.”
A claim or defense has been defined as frivolous ‘if the proponent can present
no rational argument based on the evidence or law in support of that claim or
defense.” Western United Realty, Inc. v. Isaacs, 679 P.2d 1063, 1069 (Colo. 1984).
“To fall to the level of frivolousness there must be such a deficiency in fact or law
that no reasonable person could expect a favorable judicial ruling.” 5, 818 N.W.2d
804, 807 (S.D. 2012). A claim is frivolous if and only if it "lacks an arguable basis
either in law or in fact." Neitzke v. Williams, 490 U.S. 319, 327, 109 S.Ct. 1827,
9

1831-32, 104 lJ.Ed.2d 338 (1989)
In the American Psychological Association’s 27 February 2020 article
“Underestimating the Unrepresented: Cosnitive Biases Disadvantase Pro Se
Litigants in Family Law Cases.” the researchers documented that: “consistent with
hypotheses, judges evaluated pro se litigants as having less meritorious
cases (despite identical case content) and expected these litigants to experience
the civil justice system as less fair and satisfying than counseled litigants, especially
when trial (vs. mediation) was pursued....Legal officials relied on preconceptions of
pro se litigants rather than evidence presented to them. Even under practically
perfect conditions where case information was held constant, legal officials were
affected by their preconceived notions about pro se litigants over available
data. We find this troubling. In real-world settings, this phenomenon may
disadvantage pro se litigants with meritorious cases.” (emphasis added)
The record below reveals the pattern that when Sundy files an extraordinary
action in a state court to correct the record, the lower court may sua sponte correct
the defect complained about in the extraordinary action but without issuing an
order, rendering the issue in the complaint as moot. At the same time, the Clerk or
some other person will cause a new defect

such as removing papers—thereby

forcing pro se Sundy onto a hamster wheel of defending himself against collateral
acts by court officers. Any reasonable person would consider such acts as evil yet
Georgia’s courts deny Sundy any remedy to his injuries so that the record is still
incomplete and / or somehow defective.
10

On May 10, 2020 case 19-8492 for example, Sundy~filed an Extraordinary
Action in this Court which this Court denied, establishing that this Court would not
compel correction of the record.

But at the same time, this Court will declare

Sundy’s pursuit of consistent due process and equal protection as a frivolous or
malicious act by Sundy with this Court, in fact, punishing Sundy.
When claims are caused to become moot by correcting an existing defect then
maliciously creating a new defect and this conduct is allowed by the appellate
courts, the very nature of the design will generate numerous of cases in pursuit of a
remedy. If it is perceived as frivolous or malicious when a pro se litigant exhausts
all remedies in the numerous cases, it would thus seem the only remedy available
on the very first day a clerk removes papers from the record, would be for the citizen
to immediately file a Petition for a Writ of Habeas Corpus for the restraint of
liberty. In this non-prevailing situation, the Court will likely say the litigant has
not exhausted all remedies (not filed enough suits yet) to Petition for an
Extraordinary Writ.
With all respect to the Court, in filing this petition for writ Certiorari, it may
appear that Sundy is abusing the process because this Petition is also related to
Sundy’s seeking a certiorari upon an incomplete record. In considering Rule 20
however, pro se Sundy believes that in order to avail himself of an extraordinary
action in aid of this court’s jurisdiction, Sundy must first qualify for a petition for
writ of certiorari for this court to have jurisdiction. As pro se Sundy respectfully
avails himself of the rules, the Court may, here again, complain that Sundy is
11

abusing the process. However, m an attempt to"OTereomeAhiscatch-22-in-aid-of-this
court’s jurisdiction, Sundy is filing an independent Application for a Writ Habeas
Corpus to the Honorable Justice Clarence Thomas contemporaneously with the
respectful filing of this Petition, it appearing to the pro se Sundy that this Petition
is necessary to benefit under the rules by first qualifying for writ of certiorari.
Sundy has exhausted all remedies in the State of Georgia and the record is
still incomplete. Perhaps Sundy, as a free man, absolutely has neither an ordinary
remedy nor an extraordinary remedy to enforce Georgia to make the record whole.
It is strange times we live in in America, where judges, not the rule of law,
deem a clerk removing papers from the record as normal behavior and that there is
no issue of public interest to justify for certiorari to review an incomplete record.
But if a citizen is adamant about seeking judicial aid to compel a clerk to return the
papers, it is deemed abusive, frivolous or even malicious.
Because Sundy’s claims have an arguable basis in both law and fact, perhaps
the bias of judges evaluating pro se litigants as having less meritorious cases
despite identical case content to attorney-represented partiesn is the only
reasonable explanation. Despite the obvious futility of appealing upon an incomplete
record, pro se Sundy stands his ground and avails himself of the appellate process in
order to correct error, pursue valid legal claims and clearly justiciable issues of law or
fact, still believing in the right of equal protection for all citizens.

12

REASONSFOR GRANTING THEWRIT
Sundy has not asked for a perfect record, only the complete record to which he is
entitled.
“...while Petitioner is entitled to a complete record, a perfect one is not
mandated by either the state or federal courts. See, e.g., Maver v. City
of Chicago. 404 U.S. at 194 ("A 'record of sufficient completeness' does
not translate automatically into a complete verbatim transcript");
People v. Harris. 43 Cal.4th 1269. 1283 (2008) (a perfect record cannot
always be achieved)” Alvarez v. Warden, San Quentin State Prison,
No. 2:97-cv-1895 KJM KJN P (E.D. Cal. Apr. 2, 2019)
Georgia appellate courts have consistently demonstrated over the past six
years that pro se Sundy, in custody, will not be afforded enforcement of his
constitutional rights under the First, Fourth, and Fourteenth Amendments, and that
the pattern and practice of Atlanta-area courts, or record maintaining court records
with substantial and significant omissions and material falsities is not a matter of
public concern in Georgia.
To have a “plain, speedy and efficient” remedy it is conclusive that a litigant
must have a complete record. The relief sought by Sundy from this Court is not
available in any other court in the state of Georgia.
CONCLUSION
After all remedies have been exhausted, the truth must still be upheld. The
adverse parties must come into the court under oath and swear that a judgment
APPENDIX C was obtained with consistent due process and upon a complete
record, a record without defects and with all essential papers.

If the opposing

parties present falsehood, then the court must allow Sundy to confirm the evidence
13

that Sundy has presented many timeshn-previous-eases.■
The Court should grant Sundy’s petition for a writ of certiorari.
Respectfully submitted,

Tim Sundy, pro
227 Sandy Springs Place, Ste D-465
Sandy Springs, GA 30328

14

